Memorandum from the Office of the Inspector General


August 8, 2006

Phillip L. Reynolds, LP 3A-C

FINAL INSPECTION REPORT 2006-511I – REVIEW OF TVA’S PRESCRIPTION SAFETY
EYEWEAR PROGRAM



At the request of TVA Occupational Health and Workers’ Compensation (OH&WC), we
performed a limited scope review to assess whether policies, procedures, and key control
activities ensure compliance with Tennessee Valley Authority’s (TVA) Prescription Safety
Eyewear Program requirements. Our review of TVA’s policies for, and records of,
authorizing and obtaining prescription safety eyewear identified opportunities for
improvement.

BACKGROUND

TVA provides prescription safety eyewear to employees who work in environments that may
be hazardous to eyes. The protective eyewear is provided at a discount to TVA through a
contract with AOSafety. The discount is also offered to employees and retirees who would
like to purchase the same eyewear for personal use.

Employees who work in an area that requires safety eyewear are eligible to receive one pair
of prescription safety eyewear with clear lenses. In addition:

•     Employees required to work primarily outdoors are provided a second pair of eyewear
      with tinted lenses or one pair of photocromatic prescription safety eyewear.
•     Prescription safety eyewear with fixed side-shields is provided to employees who work
      in a location with side-shield requirements.
•     TVA police are eligible to receive one pair with clear lenses and one pair of prescription
      sunglasses.

For the time period May 2004 through December 2005, TVA purchases of prescription
safety eyewear totaled approximately $398,800. OH&WC requested this review based on
(1) OH&WC noting that there appeared to be multiple approvals for individuals with the
same name or same unique identifier;1 (2) the unique identifier currently in use may not be
unique to only one TVA employee; and (3) the amounts listed for payments, in some cases,
were much less than what is normally paid for a pair of prescription safety eyewear.



1
    OH&WC uses a unique identifier in conjunction with the employee name to identify the applicable employee
    receiving the prescription eyewear.
Phillip L. Reynolds
Page 2
August 8, 2006


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our review was to assess whether policies, procedures, and key control
activities ensure compliance with the prescription safety eyewear program. To achieve our
objective, we:

•   Reviewed policies and procedures to identify required processes and key control
    activities.
•   Conducted a walkthrough of the processes with personnel from OH&WC to determine
    (1) if the actual process and key control activities mirror those outlined in the written
    policies and procedures and (2) if any additional key control activities exist.
•   Selected a sample of records for authorized prescription safety eyewear purchases to
    (1) verify the purchases were authorized and (2) ensure policies pertaining to
    replacements and accessories were complied with.

Our scope included the Prescription Safety Eyewear Program policies, procedures, and key
control activities that were applicable to the TVA prescription safety eyewear purchases for
the period of May 2004 through December 2005. This inspection was conducted in
accordance with the “Quality Standards for Inspections.”

FINDINGS

TVA’s policies and procedures adequately address the eligibility requirements and process
to be followed in order to obtain prescription safety eyewear. However:

•   The policies and procedures regarding prescription safety eyewear (1) do not address
    the retention of supporting documentation for purchases of prescription safety eyewear
    and (2) are not being complied with by all the Safety Eyewear Coordinators (SEC).
•   The policies and procedures could be strengthened to clearly identify the time frame
    constraints for obtaining replacement eyewear.
•   The current identifiers used for employees are not unique to a single employee.

POLICY AND PROCEDURE COMPLIANCE
We found that retention of supporting documentation for safety eyewear purchases is not
required in applicable safety eyewear practices and procedures. However, since the
purchases are made via the TVA Visa Purchasing Cards, documentation should have been
maintained as required by the Visa Purchasing Card Procedure. We found, however, that
complete supporting documentation was not available for approximately 18 percent of the
sample we reviewed.

OH&WC procedures and Health and Safety Practice 7 (Practice 7) define the acquisition
process and specifically require that:

•   The requesting employee must submit a form to the SEC which includes the required
    prescription and selected frames.
•   The SEC must request approval from the employee’s supervisor.
Phillip L. Reynolds
Page 3
August 8, 2006


•   The employee’s supervisor must determine if the safety eyewear is required for the
    employee’s position.
•   The SEC must submit the order to AOSafety for fulfillment upon receipt of supervisory
    approval.

We selected a sample of prescription safety eyewear purchases to assess the adequacy of
key control activities. The documentation supporting the selected purchases was requested
from each respective SEC by the Health Programs Coordinator. The requested
documentation included the approval forms and a copy of the invoice that would have been
used to reconcile the purchasing card.

The requested approval forms were not available for 14 of the 77 (18 percent) records
requested. In addition, 8 of the 64 available approval forms were faxed from AOSafety to
the appropriate SECs during the course of this review. While the current safety eyewear
policies and procedures do not specifically address the retention of supporting
documentation for purchases of prescription safety eyewear, Practice 7 requires the SEC to
review and reconcile TVA Purchasing Card charges for eyewear. Additionally, TVA’s Visa
Purchasing Card Procedure requires that supporting documentation and the statement for
Visa charges be reviewed by the designated approving official and retained for three years.
Supporting documentation would include the approval forms. Accordingly, complete
supporting documentation was not available for approximately 18 percent of the purchases
in our sample.

In addition, our review of the records received found additional instances where Practice 7
and OH&WC procedures were not followed. Specifically, the policies and procedures
outlined in Practice 7 and by the OH&WC require authorization from a supervisor prior to
submitting the form to AOSafety, and that an employee required to work outdoors in
activities that pose an eye hazard be eligible for one pair of transition lenses or one pair of
prescription safety eyewear with clear lenses and one pair with tinted lenses. We found
that:

•   Six of the approval forms did not have an authorized signature.
•   One employee ordered two pairs of the exact same prescription safety eyewear with
    transition lenses on the same day.

REPLACEMENT TIME CONSTRAINT
Practice 7 adequately documents the qualifications for prescription safety eyewear and the
processes and procedures to follow to acquire prescription safety eyewear. However,
Practice 7 states, “Replacements are limited to one per 12-month period.” Based on our
review of the information provided and discussions with OH&WC, this provision needs
clarification. According to OH&WC, one replacement is allowed within 12-months from the
original purchase/authorization. Practice 7 could be interpreted as a 12-month calendar
year rather than 12-months duration from the purchase of the prescription safety eyewear.

UNIQUE IDENTIFIER
The last four digits of a person’s social security number as prescribed by the procedures are
used as the unique identifier. We found that the identifier could be the same for more than
Phillip L. Reynolds
Page 4
August 8, 2006


one employee, and authorized transactions lacked consistency regarding the unique
identifier and name used for the authorized purchase. In the sample requested:

•   Four instances were identified where one employee is listed under two or more different
    employee identification numbers. The records were not available for two of these
    instances. The other two instances appeared to be valid purchases.
•   Five instances were identified with multiple spellings of the employees name or the
    addition of a number at the end of the employee’s name. All of the identified instances
    appeared to be valid purchases.

OH&WC has acknowledged that the unique identifiers have been a problem.

RECOMMENDATIONS

The Vice President of Human Resources should:

•   Ensure safety eyewear procedures include a specific requirement and process for
    maintaining supporting documentation including details/descriptions of the items
    purchased, itemized costs, approval forms, AOSafety invoices, and that this requirement
    is reinforced through periodic training of the SECs.
•   Reword the current procedures to clearly identify the time frame constraints on ordering
    replacement prescription safety eyewear.
•   Continue to explore options for changing the identifier so it is unique for each employee
    and utilize correct spelling of employees’ names when ordering safety eyewear.
The subject final report is being provided for your review and action. Please advise us of
your planned actions in response to our findings within 60 days of the date of this report.

                      -       -      -       -       -      -       -

If you have any question, please contact Michael A. Driver, Senior Auditor, at (423) 751-8158
or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at (423) 751-7821.
We appreciate the courtesy and cooperation received from your staff during the review.



Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

MAD:HRK:BKA
cc: Peyton T. Hairston, Jr., WT 7C-K                 Scott W. Tiemeyer, BR 3B-C
    Tom D. Kilgore, WT 7B-K                          Katherine J. Welch, BR 3B-C
    John E. Long, Jr., WT 7B-K                       OIG File No. 2006-511I
    Richard W. Moore, ET 4C-K
